           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   FOLLOW-UP: CONTROLS OVER
RECORDING SUPPLEMENTAL SECURITY
     INCOME OVERPAYMENTS


     August 2009   A-01-09-19126




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   August 25, 2009                                                            Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Follow-up: Controls over Recording Supplemental Security Income Overpayments
        (A-01-09-19126)


        OBJECTIVE
        Our objective was to ensure overpayments on closed Supplemental Security Income
        (SSI) records were brought forward to current records for recovery.

        BACKGROUND
        SSI is a nation-wide, Federal cash assistance program administered by SSA that
        provides a minimum level of income to financially needy individuals who are aged, blind
        or disabled.1

        An SSI overpayment is the total amount an individual received for any period that
        exceeded the total amount that should have been paid for that period.2 Failure to
        transfer an overpayment on a closed record to the current record results in a lost
        opportunity to recover the overpayment. Adjustment of ongoing payments is the most
        effective method of overpayment recovery. SSA field offices are ultimately responsible
        for recognizing the need to transfer an overpayment from a closed record to the latest
        record. Once the correct amount of the overpayment to be transferred is determined,
        the terminated record must be balanced and closed out. Subsequently, the
        overpayment information must be posted to the latest record.3




        1
            The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq., 20 C.F.R. § 416.110.
        2
            20 C.F.R. § 416.537; SSA, Program Operations Manual System (POMS) GN 02201.001.
        3
            SSA, POMS SI 02220.011.
Page 2 - The Commissioner

In response to internal control weaknesses related to overpayments, SSA implemented
the Debt Recovery Program in 2000, which was designed to transfer outstanding
overpayments to current records. Additionally, this Program was to augment a limitation
with the Agency’s already established overpayment reconciliation process.4

Our 2001 audit5 found that SSA’s internal controls did not ensure that all SSI
overpayments on closed records were identified and pursued for collection from current
payments. Based on our statistical sample, we estimated that, as of February 2000,
$93.5 million in overpayments should have been transferred to 35,138 recipients’
current records.

SSA agreed with the following recommendations

    1. Continue to periodically run the Debt Recovery Program to ensure that prior
       overpayments on closed records are identified and pursued for collection.

    2. Pursue collection of the 17,675 overpayments we identified, which do not meet
       the criteria for selection by the Debt Recovery Program.

    3. Review the 20,519 overpayments we identified that meet the criteria for being
       moved forward by the Debt Recovery Program and ensure that these
       outstanding overpayments were transferred to new Supplemental Security
       Records (SSR).

To perform our follow-up review, we identified 3,705 individuals with overpayments on
prior SSRs that were not carried forward to new SSRs. We then randomly selected
200 cases from this population for detailed analysis. For cases where we believed
overpayments were not forwarded to their latest records, we requested that SSA’s
Office of Operations verify the outstanding overpayments and correct the record as
necessary. (See Appendix B for more information on our scope, methodology and
sample results.)

RESULTS OF REVIEW
During our follow-up review, we found a significant decrease in the number of cases
with overpayments not forwarded to the latest SSR, as compared to the number of
cases found during our audit from 2001. More specifically, in the current audit, we
identified a population of 3,705 SSI recipients versus 38,194 from the prior audit, which
represents a decrease of around 90 percent.



4
 The overpayment reconciliation process previously established by SSA is called Terminated Record
Balancing and Debt Transfer (TREBDET).
5
 SSA, Office of the Inspector General, Controls Over Recording Supplemental Security Income
Overpayments (A-01-00-10005), May 2001.
Page 3 - The Commissioner

Table 1 further illustrates this decrease between our current and prior audits.

                  Table 1: Comparison Between Current and Prior Audits
                                           Current Audit        Prior Audit           Change
         Case Data Retrieval Date          January 2008        February 2000          8 years
         Population                             3,705              38,194               90%
         Projected Number of Cases
         Where Overpayments Not                 3,075              35,138               91%
         Forwarded to Current SSR
         Projected Amount of
         Overpayments Not Forwarded         $9.4 million        $93.5 million           90%
         to Current SSR

Based on the results of our sample, we estimate that approximately $9.4 million in
overpayments should have been transferred to 3,075 recipients’ current SSRs, as of
June 2009.

Of the 200 cases in our sample,                          200 SSI Recipients with Outstanding
                                                           Overpayments on Prior Records

     166 (83 percent) had                         166 Not
                                                  Forw arded
      approximately $507,400 in                     (83%)
      outstanding overpayments not
      carried forward from previous
      SSRs, and

     34 (17 percent) were resolved                                                     34 Resolved
      with no prior outstanding                                                            (17%)

      overpayments.

On average, the SSI recipients in our sample had about $3,050 in outstanding
overpayments.6

SSI RECIPIENTS WITH OUTSTANDING OVERPAYMENTS NOT FORWARDED

SSA has automated programs in place to identify and reconcile overpayments from
prior SSRs; however, manual intervention is sometimes necessary to properly bring
forward outstanding overpayments.7 For some of the cases in our sample,
overpayments that were not brought forward to the current SSRs were attributed to
manual error.8
6
    The median outstanding overpayment amount from our sample is approximately $2,083.
7
    Automated programs include the Debt Recovery Program and TREBDET.
8
 Of the 166 cases with errors, 40 (24 percent) were attributed to manual error, 7 (4 percent) were
attributed to system error and the remaining 119 (72 percent) were attributed to undetermined reasons.
Page 4 - The Commissioner

For example, an SSI recipient had an outstanding overpayment of approximately
$1,800 for the period November 2006 through February 2007. SSA assessed this
overpayment in August 2007. A new SSR was created several days later in
August 2007. However, the overpayment was not forwarded to the new SSR because
of an oversight by the SSA field office that processed the case. As of June 2009, the
recipient was in current pay status, and had SSA invoked recovery of the overpayment
when it was assessed, the Agency could have recovered about $975 since that time.9

To determine whether recovery of the overpayments in our sample was possible, we
retrieved the current pay status for all 166 recipients who had outstanding
overpayments not forwarded from prior records. The breakout by status for these
cases, as of June 2009, is depicted in Table 2.

     Table 2: Status of Cases with Outstanding Overpayments Not Forwarded
                         from Prior SSRs as of June 2009
                                                                      Approximate Amount of
                                    Number of
              Status                                  Allocation           Recoverable
                                      Cases
                                                                          Overpayments
    Current Pay                         145                 87%                 $437,000
    Non-Pay/Suspended                    14                  9%                    47,600
    Deceased                               7                 4%                    22,800

    Total                               166              100%                   $507,400

The information in Table 2 indicates that recovery of the overpayment is possible for
145 cases, or 87 percent, since those individuals are in current pay status and likely
able to repay their respective overpayment amounts (as opposed to someone who is in
non-pay or suspended status).

SSI RECIPIENTS WITH RESOLVED OVERPAYMENTS

While analyzing the data we pulled for our sample of 200 cases, we confirmed that the
overpayments on 34 of the cases were erroneously calculated or properly reconciled
and recovered by SSA in some manner.

For example, a recipient had approximately $2,100 in outstanding overpayments not
forwarded from the prior SSR. The representative payee previously assigned to the SSI




9
  Pursuant to the Social Security Act § 1631(b)(1)(B), 42 U.S.C. § 1383(b)(1)(B), see also
20 C.F.R. § 416.571, the rate of adjustment of payment to recover SSI overpayments is the lesser of
(a) 10 percent of the recipient’s total monthly income or (b) the recipient’s entire monthly benefit.
Page 5 - The Commissioner

recipient was liable for the overpayment. Subsequently, the overpayment was
transferred to the representative payee’s own SSR for recovery efforts.10

CONCLUSION AND RECOMMENDATION
Although we estimate that approximately $9.4 million in overpayments were not
forwarded to new SSRs for about 3,075 recipients, SSA has made improvements in
properly forwarding overpayments. These improvements are evidenced by the
significant decrease in the number of overpayments not brought forward to current
SSRs since our prior audit.

We recommend that SSA review the remaining cases we identified that meet the criteria
for being moved forward and ensure these outstanding overpayments are transferred to
new SSRs.

AGENCY COMMENTS
SSA agreed with the recommendation. See Appendix C.


                                                       S
                                                       Patrick P. O’Carroll, Jr.




10
  A representative payee is a third party appointed by SSA who receives payment on behalf of a
beneficiary who is incapable of managing or directing someone else to manage his or her funds.
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                              Appendix A

Acronyms
C.F.R.     Code of Federal Regulations

POMS       Program Operations Manual System

SSA        Social Security Administration

SSI        Supplemental Security Income

SSR        Supplemental Security Record

TREBDET    Terminated Record Balancing and Debt Transfer

U.S.C.     United States Code
                                                                      Appendix B

Scope, Methodology and Sample Results
To accomplish our objective, we:

   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies and procedures.

   Reviewed prior Office of the Inspector General reports.

   Identified 3,705 individuals who (1) were receiving benefits as of January 2008 with
    overpayments on prior Supplemental Security Records (SSR) that were not carried
    forward to new SSRs, (2) had an overpayment decision date of January 1, 2001 or
    later, and (3) had a total outstanding overpayment amount of $500 or greater.

   Randomly selected 200 cases from this population for detailed analysis.

   Confirmed with SSA’s Office of Operations that the overpayments were valid and
    should have been brought forward to the current record.

We performed our audit between January and June 2009 in Boston, Massachusetts.
We found the data used for this audit were sufficiently reliable to meet our audit
objective. The entities audited were SSA’s field offices under the Deputy Commissioner
for Operations and the Office of Applications and Supplemental and Security Income
Systems under the Deputy Commissioner for Systems.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.




                                           B-1
SAMPLE RESULTS

                                                                     Number of SSI
               Table B-1: Population and Sample Size
                                                                     Overpayments
               Population                                                   3,705
               Sample Size                                                    200



Table B-2: SSI Overpayments Not Carried                  Number of SSI
                                                                              Dollars
Forward to Current Record                                Overpayments
Sample Results                                                    166         $507,363
Point Estimate                                                   3,075       $9,398,893
Projection Lower Limit                                           2,896       $8,163,962
Projection Upper Limit                                           3,227      $10,633,825
 Note: All projections are at the 90-percent confidence level.




                                                   B-2
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM


Date:      August 14, 2009                                                      Refer To: S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Margaret J. Tittel /s/
           Acting Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, “Follow-up: Controls over Recording
           Supplemental Security Income Overpayments” (A-01-09-19126)—INFORMATION

           Thank you for the opportunity to review and comment on the draft report. We appreciate OIG’s
           efforts in conducting this review. Attached is our response to the report recommendation.

           Please let me know if we can be of further assistance. Please direct staff inquiries to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                        C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL’S DRAFT REPORT,
“FOLLOW-UP: CONTROLS OVER RECORDING SUPPLEMENTAL SECURITY
INCOME OVERPAYMENTS” (A-01-09-19126)

Our response to your specific recommendation is as follows.

Recommendation 1

Review the remaining cases we identified that meet the criteria for being moved forward and
ensure that these outstanding overpayments are transferred to new Supplemental Security
Records.

Comment

We agree. We will review the remaining cases as resources allow. We expect to complete our
review and the necessary corrective actions by the end of December 2009.




                                              C-2
                                                                     Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Chad Burns, Auditor

   Kevin Joyce, IT Specialist

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-01-09-19126.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
